Washington, D.C. 20530

February 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Isaiah Devon Stallworth v. United States of America,
S.Ct. No. 20-6563
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on November 16, 2020.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on February 12, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 15, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-6563
STALLWORTH, ISAIAH DEVON
USA

ISAIAH STALLWORTH
33556-058
BENNETTSVILLE FCI
POB 52020
BENNETTSVILLE, SC 29512

